<html>
<title> - H.R. 4979, THE ADVANCED NUCLEAR TECHNOLOGY DEVELOPMENT ACT OF 2016, AND H.R., THE NUCLEAR UTILIZATION OF KEYNOTE ENERGY POLICIES ACT</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


H.R. 4979, THE ADVANCED NUCLEAR TECHNOLOGY DEVELOPMENT ACT OF 2016, AND 
    H.R. ___, THE NUCLEAR UTILIZATION OF KEYNOTE ENERGY POLICIES ACT

=======================================================================

                                 HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON ENERGY AND POWER

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 29, 2016

                               __________

                           Serial No. 114-141
                           
                           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                           


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                        
                        
                    U.S. GOVERNMENT PUBLISHING OFFICE
23-503                       WASHINGTON : 2017                    
                    
_________________________________________________________________________________________

For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4d2a3d220d2e383e392528213d632e222063">[email&#160;protected]</a>  
                  
                    
                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman
JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Chairman Emeritus                    Ranking Member
ED WHITFIELD, Kentucky               BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
JOSEPH R. PITTS, Pennsylvania        ELIOT L. ENGEL, New York
GREG WALDEN, Oregon                  GENE GREEN, Texas
TIM MURPHY, Pennsylvania             DIANA DeGETTE, Colorado
MICHAEL C. BURGESS, Texas            LOIS CAPPS, California
MARSHA BLACKBURN, Tennessee          MICHAEL F. DOYLE, Pennsylvania
  Vice Chairman                      JANICE D. SCHAKOWSKY, Illinois
STEVE SCALISE, Louisiana             G.K. BUTTERFIELD, North Carolina
ROBERT E. LATTA, Ohio                DORIS O. MATSUI, California
CATHY McMORRIS RODGERS, Washington   KATHY CASTOR, Florida
GREGG HARPER, Mississippi            JOHN P. SARBANES, Maryland
LEONARD LANCE, New Jersey            JERRY McNERNEY, California
BRETT GUTHRIE, Kentucky              PETER WELCH, Vermont
PETE OLSON, Texas                    BEN RAY LUJAN, New Mexico
DAVID B. McKINLEY, West Virginia     PAUL TONKO, New York
MIKE POMPEO, Kansas                  JOHN A. YARMUTH, Kentucky
ADAM KINZINGER, Illinois             YVETTE D. CLARKE, New York
H. MORGAN GRIFFITH, Virginia         DAVID LOEBSACK, Iowa
GUS M. BILIRAKIS, Florida            KURT SCHRADER, Oregon
BILL JOHNSON, Ohio                   JOSEPH P. KENNEDY, III, 
BILLY LONG, Missouri                     Massachusetts
RENEE L. ELLMERS, North Carolina     TONY CARDENAS, California
LARRY BUCSHON, Indiana
BILL FLORES, Texas
SUSAN W. BROOKS, Indiana
MARKWAYNE MULLIN, Oklahoma
RICHARD HUDSON, North Carolina
CHRIS COLLINS, New York
KEVIN CRAMER, North Dakota
                    Subcommittee on Energy and Power

                         ED WHITFIELD, Kentucky
                                 Chairman
PETE OLSON, Texas                    BOBBY L. RUSH, Illinois
  Vice Chairman                        Ranking Member
JOHN SHIMKUS, Illinois               JERRY McNERNEY, California
JOSEPH R. PITTS, Pennsylvania        PAUL TONKO, New York
ROBERT E. LATTA, Ohio                ELIOT L. ENGEL, New York
GREGG HARPER, Vice Chairman          GENE GREEN, Texas
DAVID B. McKINLEY, West Virginia     LOIS CAPPS, California
MIKE POMPEO, Kansas                  MICHAEL F. DOYLE, Pennsylvania
ADAM KINZINGER, Illinois             KATHY CASTOR, Florida
H. MORGAN GRIFFITH, Virginia         JOHN P. SARBANES, Maryland
BILL JOHNSON, Ohio                   PETER WELCH, Vermont
BILLY LONG, Missouri                 JOHN A. YARMUTH, Kentucky
RENEE L. ELLMERS, North Carolina     DAVID LOEBSACK, Iowa
BILL FLORES, Texas                   FRANK PALLONE, Jr., New Jersey (ex 
MARKWAYNE MULLIN, Oklahoma               officio)
RICHARD HUDSON, North Carolina
JOE BARTON, Texas
FRED UPTON, Michigan (ex officio)
  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Ed Whitfield, a Representative in Congress from the 
  Commonwealth of Kentucky, opening statement....................     1
    Prepared statement...........................................     2
Hon. Bobby L. Rush, a Representative in Congress from the State 
  of Illinois, opening statement.................................     4
Hon. Jerry McNerney, a Representative in Congress from the State 
  of California, opening statement...............................     6
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, prepared statement...................................    72
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, prepared statement........................    73

                               Witnesses

Marvin Fertel, President and Chief Executive Officer, Nuclear 
  Energy Institute...............................................     7
    Prepared statement...........................................    10
    Answers to submitted questions...............................    83
Jeffrey S. Merrifield, Partner, Pillsbury Law Firm, Chairman, 
  Advanced Reactors Task Force, Nuclear Infrastructure Council...    24
    Prepared statement...........................................    26
    Answers to submitted questions...............................    91
Todd Allen, Senior Fellow, Clean Energy Program, Third Way.......    34
    Prepared statement...........................................    37
    Answers to submitted questions...............................    94
Geoffrey Fettus, Senior Attorney, Natural Resources Defense 
  Counsel........................................................    48
    Prepared statement...........................................    50
    Answers to submitted questions...............................    97

                           Submitted Material

Statement of the Nuclear Energy Institute........................    74
Statement of the American Nuclear Society........................    76
Statement of Clearpath Action....................................    77
Statement of Third Way...........................................    79
Statement of the Clean Air Task Force............................    80
Statement of Transatomic Power Corporation.......................    82

 
H.R. 4979, THE ADVANCED NUCLEAR TECHNOLOGY DEVELOPMENT ACT OF 2016, AND 
H.R. ----------, THE NUCLEAR UTILIZATION OF KEYNOTE ENERGY POLICIES ACT

                              ----------                              


                         FRIDAY, APRIL 29, 2016

                  House of Representatives,
                  Subcommittee on Energy and Power,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 9:34 a.m., in 
room 2123, Rayburn House Office Building, Hon. Ed Whitfield 
(chairman of the subcommittee) presiding.
    Present: Representatives Whitfield, Shimkus, Latta, 
McKinley, Kinzinger, Long, Rush, McNerney, Tonko, Green, Doyle, 
Castor, Welch, and Loebsack.
    Staff Present: Will Batson, Legislative Clerk, E&P, E&E; 
Allison Busbee, Policy Coordinator, Energy & Power; Tom 
Hassenboehler, Chief Counsel, Energy & Power; A.T. Johnston, 
Senior Policy Advisor; Chris Sarley, Policy Coordinator, 
Environment & Economy; Dan Schneider, Press Secretary; Peter 
Spencer, Professional Staff Member, Oversight; Andy Zach, 
Counsel E&E; Jeff Carroll, Minority Staff Director; Rick 
Kessler, Minority Senior Advisor and Staff Director, Energy and 
Environment; John Marshall, Minority Policy Coordinator; Dan 
Miller, Minority Staff Assistant; Alexander Ratner, Minority 
Policy Analyst; Tim Robinson, Minority Chief Counsel; Andrew 
Souvall, Minority Director of Communications, Outreach and 
Member Services; and Tuley Wright, Minority Energy and 
Environment Policy Advisor.

  OPENING STATEMENT OF HON. ED WHITFIELD, A REPRESENTATIVE IN 
           CONGRESS FROM THE COMMONWEALTH OF KENTUCKY

    Mr. Whitfield. I would like to call the hearing to order 
this morning. I recognize myself for 5 minutes.
    Good morning, and welcome to our hearing to discuss 
legislative proposals to advance the use of nuclear energy.
    I want to thank all of our witnesses in advance, and I will 
be introducing each of you before your 5-minute opening 
statement.
    But we want to thank Marvin Fertel for the great job he did 
at the Nuclear Energy Institute, and I think it is his plan to 
go on and look at other challenges at the end of this year. So 
we are delighted he is here. He has served as NEI's president 
and chief executive officer since 2009 and has had a long and 
distinguished career advocating for the nuclear industry.
    Nuclear energy is an integral part of our energy policy. 
The current fleet of roughly 100 operating nuclear power plants 
safely and reliably generates about 20 percent of our Nation's 
electricity. However, many of these power plants are 
approaching the end of their current license, and unnecessary 
regulatory costs are adding to challenging economic conditions.
    This outlook provides a timely opportunity to examine 
proposals to improve the regulatory framework for nuclear power 
plants and options to develop a regulatory framework for 
advanced nuclear technologies.
    New nuclear technologies hold great promise to operate in a 
cost-competitive environment with even greater safety margins 
than existing reactors while generating less waste and reducing 
proliferation concerns. However, regulatory uncertainty is 
repeatedly cited as a top barrier to developing these 
technologies. The Department of Energy, which supports nuclear 
research and development activity, should collaborate, where 
applicable, with the NRC to address this uncertainty.
    Today, we are going to hear from stakeholders about how to 
more effectively manage the regulatory process, including 
options to increase the efficiency and certainty of the NRC's 
existing licensing process. Representative Kinzinger's 
discussion draft highlights that cumbersome red tape in our 
regulatory process forces ratepayers to pay more for safe, 
clean nuclear power, and I want to thank him for his 
legislation, and we look forward to your comments about that.
    Also, I certainly appreciate Congressman Latta's leadership 
in addressing regulatory barriers hindering the development of 
advanced nuclear technologies. His legislation, the Advanced 
Nuclear Technology Development Act, will assure that DOE's 
technical expertise, research, and facilities are utilized, 
when appropriate, to assist the NRC.
    And at this time, I would like to yield a minute or so to 
Mr. Latta, and then I will yield to Mr. Kinzinger, for their 
comments on their legislation.
    [The prepared statement of Mr. Whitfield follows:]

                Prepared statement of Hon. Ed Whitfield

    Nuclear energy is an integral part of an ``all of the 
above'' energy policy. The current fleet of 100 operating 
nuclear power plants safely and reliably generates about 20 
percent of our nation's electricity. However, many of these 
power plants are approaching the end of their current license 
and unnecessary regulatory costs are adding to challenging 
economic conditions. This outlook provides a timely opportunity 
to examine proposals to improve the regulatory framework for 
nuclear power plants and options to develop a regulatory 
framework for advanced nuclear technologies.
    I have raised concerns in previous oversight hearings about 
the Nuclear Regulatory Commission's (NRC) discipline in its 
regulatory activities and responsiveness to NRC licensees. It 
is Congress' responsibility to consider how these activities 
can be improved while assuring adequate protection of public 
health and safety. I am confident we can identify efficiencies 
to assure NRC adheres to their Principles of Good Regulation, 
while fulfilling their critical mission.
    New nuclear technologies hold great promise to operate in a 
cost competitive environment, with even greater safety margins 
than existing reactors while generating less waste and reducing 
proliferation concerns. However, regulatory uncertainty is 
repeatedly cited as a top barrier to developing these 
technologies. The Department of Energy, which supports nuclear 
research and development activities, should collaborate where 
applicable, with the NRC to address this uncertainty.
    Today we will hear from stakeholders about how to more 
effectively manage the regulatory process, including options to 
increase the efficiency and certainty of the NRC's existing 
licensing process. Representative Kinzinger's discussion draft 
highlights that cumbersome red tape in our regulatory process 
forces ratepayers to pay more for safe, clean nuclear power.
    I appreciate Congressman Latta's leadership to address 
regulatory barriers hindering the development of advanced 
nuclear technologies. His legislation, the Advanced Nuclear 
Technology Development Act, will assure that DOE's technical 
expertise, research, and facilities are utilized when 
appropriate to assist the NRC. This legislation also requires 
the NRC to draft the regulatory roadmap for the scores of 
companies who need a regulatory framework for 21st century 
nuclear technologies.

    Mr. Latta. Well, thank you very much, Mr. Chairman. Thanks 
for yielding.
    And thanks for our panel for being with us today.
    I would like to again thank you for holding this hearing 
today on nuclear power, which is highlighting the bill 
Congressman McNerney and I introduced last week, H.R. 4979, the 
Advance Nuclear Technology Development Act of 2016.
    I would like to ask unanimous consent, Mr. Chairman, to 
enter several letters of support into the record. These letters 
are from the Nuclear Energy Institute, the American Nuclear 
Society, and ClearPath.
    Mr. Whitfield. Without objection.
    [The information appears at the conclusion of the hearing.]
    Mr. Latta. Thank you very much.
    The future of the nuclear industry needs to start now with 
Congress ensuring that the Nuclear Regulatory Commission is 
able to provide the certainty that the private sector needs to 
invest in innovative technologies. Nuclear power is currently 
20 percent of our national energy portfolio and must remain a 
vital part of our energy mix.
    As the United States looks to the future, more energy will 
be needed, and nuclear power provides a reliable, clean 
baseload power option. Investment in new technologies is 
already happening with approximately 50 companies in this 
country working to develop the next generation of nuclear 
power.
    And again, that is why we have introduced H.R. 4979. It is 
time for Congress to ensure that NRC provides a framework so 
that innovators and investors can prepare to apply for 
licensing technologies. H.R. 4979 not only requires that NRC 
establish a regulatory framework for issuing licenses for 
advanced nuclear reactor technology, but it also requires that 
NRC submit a schedule for implementation of the framework by 
2019.
    Safety in nuclear is the number one goal, and the 
regulatory framework ensures that NRC has the opportunity to 
develop a framework that enables them to safely regulate the 
future technology of the nuclear industry. H.R. 4979 also 
requires that the Department of Energy and the NRC collaborate 
in advancing new nuclear technology. The National Labs in DOE 
provide opportunities for testing of new nuclear technology on 
Federal lands and the option to look at public-private 
partnerships between the DOE and the private sector companies 
interested in investing in the future of nuclear.
    There is also a role for the NRC in this space because 
these testing opportunities allow for a demonstration of 
technologies that NRC has not been licensing over the past 4 
years.
    And, Mr. Chairman, I greatly appreciate you holding this 
hearing, and I yield back to you. Thank you very much.
    Mr. Whitfield. Mr. Kinzinger, Mr. Upton is not going to be 
here, so I want to give you his time.
    Mr. Kinzinger. Thank you.
    Mr. Whitfield. And then if Mr. Latta wants to talk some 
more, he can talk some more too then.
    At this time I recognize Mr. Rush for his 5-minute opening 
statement.

 OPENING STATEMENT OF HON. BOBBY L. RUSH, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Rush. I want to thank you, Mr. Chairman, for holding 
this important hearing today on H.R. 4979, the Advanced Nuclear 
Technology Development Act of 2016, and the Nuclear Utilization 
of Keynote Energy Policies Act.
    Mr. Chairman, as we move towards a reduced carbon 
sustainable energy economy, there is no doubt that nuclear 
energy will need to play an instrumental role in order to reach 
those objectives. While today's fleet of nuclear reactors 
utilize light-water reactor technology, more attention is now 
being paid to the use of non-LWR reactor designs that have been 
demonstrated by the Department of Energy but are currently not 
licensed for commercial use in the United States.
    In fact, Mr. Chairman, emerging innovative designs of 
advanced nonlight-water reactors and light-water small modular 
reactors have the potential to produce nuclear power more 
efficiently and with less waste than the current technologies.
    If we are to truly develop and scale up these technological 
advances, it is important that policymakers and the Nuclear 
Regulatory Commission provide regulatory certainty for the 
nuclear industry in order to encourage investment in these 
next-generation nuclear designs.
    So I applaud my colleagues, Mr. Latta and Mr. McNerney, for 
introducing H.R. 4979. This legislation seeks to provide 
guidance and direction to the NRC and the DOE to ensure that 
these two agencies have sufficient technical expertise in order 
to support and regularly advance reactor technology.
    The rule also requires the NRC to formulate a plan that 
would help foster civilian research and development of advanced 
nuclear energy technologies and enhance the licensing and 
commercial development of such technologies.
    Mr. Chairman, I fully support the intent of this 
legislation. I look forward to hearing feedback from our panel 
of experts on both the necessity for this type of legislation 
and the implications once it is enacted. In regards to the 
Nuclear Utilization of Keynote Energy Policies Act, I also look 
forward to engaging the witnesses on this legislation.
    Mr. Chairman, finally, if nuclear energy is going to 
continue to play a constructive role in a reduced carbon energy 
portfolio, we must ensure that we have policies in place that 
appropriately reflect the contributions of the industry and the 
current reality that it faces. So I commend my colleague from 
Illinois, Mr. Kinzinger, for introducing a bill draft that at 
the very least initiates a conversation toward reaching this 
goal.
    Of course, Mr. Chairman, today's bill is simply a 
discussion draft, and we would need to hear from the NRC 
commissioners themselves before moving into the legislative 
process. But I look forward to today's hearing, and I look 
forward to testimony from today's experts on both the need for 
the changes outlined in the bill as well as the practical 
implications if these changes were indeed enacted.
    I want to thank you, Mr. Chairman. I yield back the balance 
of my time.
    Mr. Whitfield. The gentleman yields back.
    At this time I recognize Mr. Kinzinger for 5 minutes. And 
if some others who want some of your time, you might consider 
yielding to them. Thank you.
    Mr. Kinzinger. Sure. This will be fairly quick.
    Mr. Chairman, I want to thank you for holding the hearing, 
and I want to thank each of the witnesses for being here today. 
It is an important topic.
    As we have heard, nuclear power generates about 20 percent 
of electricity in the United States, and in Illinois it is over 
50 percent, including 60 percent of our Nation's carbon-free 
electricity. These plants are high performing, consistently 
having the highest capacity factors by far in the electricity 
industry and setting the gold standard for commercial nuclear 
safety worldwide.
    We have to recognize, however, that while our nuclear fleet 
is strong today, the demand for clean, reliable, and affordable 
energy is only increasing. We have an obligation to safely 
maintain our existing fleet of 99 units and to ensure the NRC 
continues to regulate efficiently and effectively so investment 
in plants can continue.
    The regulatory inefficiency and uncertainty we often see 
today does nothing to help our existing fleet, does nothing to 
foster investment in new plants, or most importantly, to ensure 
safety and protect public health.
    I want to thank the NRC for providing me with technical 
feedback on this draft, which we are currently reviewing, and I 
look forward to continuing to work with them throughout this 
process. Furthermore, I appreciate the interest in my 
colleagues in this issue addressed in my discussion draft, 
including establishing fair and more equitable NRC fees, 
streamlining the licensing process, and improving the current 
regulatory framework for decommissioning plants. These are all 
important conversations to have so that nuclear power can 
continue to provide clean, reliable, and affordable electricity 
to ratepayers in the United States.
    Again, I welcome this opportunity to discuss how we can 
maintain our Nation's position as the global leader in civilian 
nuclear power and NRC's position as the gold standard of 
safety. I think all of us who are in this room recognize that 
if we cede the position, it will have serious consequences not 
only for our economy but also for our national security.
    With that, Mr. Chairman, I am happy to yield to anybody who 
wants my time.
    Mr. Whitfield. Anybody on our side seek additional time?
    Mr. Kinzinger. Great. I yield back.
    Mr. Whitfield. OK. Yields back.
    At this time I recognize the gentleman from California, and 
thank him very much for cosponsoring this legislation as well, 
for 5 minutes.

 OPENING STATEMENT OF HON. JERRY MCNERNEY, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. McNerney. Thank you, Mr. Chair.
    Our Nation will, by necessity, diminish our dependence on 
fossil fuels in order to fight climate change, and as we do so, 
we will need to turn more and more to nuclear power.
    H.R. 4979, the bill that my colleague, Mr. Latta, and I 
introduced, allows the NRC to develop the needed technical 
expertise for emerging technologies. This legislation provides 
a pathway for the NRC and the DOE to continue collaborating and 
establishes a regulatory framework for consideration of 
licensing advanced reactors. This will help ensure that as 
newer, safer technologies are developed, that the NRC has the 
framework in place to review new applications.
    Mr. Chairman, with unanimous consent, I would like to 
submit three letters, one from Berkeley's Nuclear Engineering 
Department, one from Third Way, and one from the Clean Air Task 
Force, into the record.
    Mr. Whitfield. Without objection.
    [The information appears at the conclusion of the hearing.]
    Mr. McNerney. And I will yield the balance of my time to my 
colleague from Pennsylvania.
    Mr. Doyle. And I thank my colleague.
    I want to thank the chairman and the ranking member for 
holding this important hearing today. To me, nuclear is a 
critical component of our energy future. We need to work here 
at this committee to ensure that it remains feasible and safe 
for our constituents back home by investing in this incredible 
energy source and its technology and making sure its value as 
carbon-free reliable baseload power is properly appreciated.
    I believe that advanced nuclear is a key component of 
maintaining nuclear power in the future and will be an integral 
part of our energy portfolio here in the United States. My 
colleagues, Congressman Latta and McNerney's bill takes 
important steps in that direction.
    I also want to applaud our colleague Mr. Kinzinger for his 
discussion draft. I think we share many similar concerns 
regarding the nuclear industry, and I am optimistic that we 
will be able to find some common ground on solutions. Though I 
couldn't help but notice the acronym for your bill is NUKEPA, 
which I find somewhat distressing.
    But I am certainly encouraged by bringing attention to 
these issues the nuclear industry is facing, and I do hope we 
can work together on solutions and by coming up with a 
different acronym than the one you have chosen.
    Thank you. I yield back.
    Mr. Whitfield. The gentleman yields back. So that concludes 
the opening statements, and I am going to introduce the 
witnesses individually before they speak.
    So first of all, we have Mr. Marvin Fertel, who I mentioned 
in my opening statement, president and chief executive officer 
for the Nuclear Energy Institute.
    Thanks for being with us, and we look forward to your 
testimony. You are recognized for 5 minutes.

  STATEMENTS OF MARVIN FERTEL, PRESIDENT AND CHIEF EXECUTIVE 
   OFFICER, NUCLEAR ENERGY INSTITUTE; JEFFREY S. MERRIFIELD, 
 PARTNER, PILLSBURY LAW FIRM, CHAIRMAN, ADVANCED REACTORS TASK 
   FORCE, NUCLEAR INFRASTRUCTURE COUNCIL; TODD ALLEN, SENIOR 
 FELLOW, CLEAN ENERGY PROGRAM, THIRD WAY; AND GEOFFREY FETTUS, 
       SENIOR ATTORNEY, NATURAL RESOURCES DEFENSE COUNSEL

                   STATEMENT OF MARVIN FERTEL

    Mr. Fertel. Thank you, Mr. Chairman and Ranking Member Rush 
and members of the subcommittee. On behalf of the commercial 
nuclear energy industry, I want to thank the committee for 
considering the Advanced Nuclear Technology Development Act, 
H.R. 4979, and the discussion draft of the Nuclear Utilization 
of Keynote Energy Policies Act.
    I am pleased to represent the broad nuclear industry, 
including the owners and operators of nuclear power plants and 
the supplier community today.
    As Congressman Kinzinger said, nuclear energy is the 
largest and most efficient source of carbon-free electricity in 
the United States. Our 99 reactors produce nearly 20 percent of 
our Nation's electricity and approximately 63 percent of our 
carbon-free electricity.
    Nuclear energy facilities demonstrate unmatched reliability 
by operating with an average capacity factor of 92 percent, 
higher than all other electricity sources. And importantly, 
they are essential to the country's economy and the communities 
in which they operate.
    Despite the significant environmental, economic, and 
national security benefits that nuclear energy provides, the 
current regulatory requirements and licensing processes 
challenge the industry's ability to build new technologically 
advanced reactors.
    The prospect of developing advanced reactors has become 
both attractive and necessary in the U.S. and abroad. In this 
country, approximately 126,000 megawatts of generation will be 
retired over the next 15 years. The U.S. Energy Information 
Administration forecasts the need for 287,000 megawatts of new 
electric capacity by 2040 in addition to the electric capacity 
that will be needed to replace the retired power plants.
    Many other countries are looking to a rapid expansion of 
nuclear energy to address their growing electricity and 
environmental needs. Advanced nuclear reactor designs offer 
many technological advances for the U.S. and are also well 
suited to developing economies. However, without strong Federal 
leadership and direction, the U.S. industry runs the risk of 
falling behind its international competitors.
    H.R. 4979 affirms Congress' commitment to U.S. leadership 
in nuclear technology and safety. The industry supports 
provisions in the bill that effectively direct the NRC to think 
differently about licensing reactors. The bill calls for an 
efficient, risk-informed, technology-neutral framework for 
advanced reactor licensing and a phased review process that 
could effectively facilitate private financing for advanced 
reactors.
    Developers will be able to demonstrate progress to 
investors and other participants in these first-of-a-kind 
projects and obtain necessary capital investments as they 
achieve milestones.
    The NRC imposes stringent safety requirements that all 
nuclear facilities must meet to maintain public health and 
safety. As we look to the details of how innovative advanced 
reactor technologies can meet these requirements, it is 
important for the NRC's regulatory framework to acknowledge 
that there will be a variety of effective ways to meet their 
safety requirements.
    H.R. 4979 also recognized that it is a government function 
to develop the regulatory infrastructure to licensed advanced 
reactor technologies and therefore authorizes Federal funding 
to support those activities.
    Congress should reform the NRC's fee-recovery structure to 
make fees more equitable and transparent. Despite NRC's efforts 
to reduce its budget and rightsize the agency, fees continue to 
be excessive and limitations of the mandated 90 percent fee 
rule create fundamental structural problems.
    The NRC budget is approximately $1 billion per year, 
despite significant declines in its workload. In particular, 
according to an Ernst & Young study performed for the NRC, the 
NRC spends 37 percent of its budget on mission support costs, 
more than 10 percent higher than some peer agencies.
    Because the NRC must collect 90 percent of its budget from 
licensees and the NRC budget has not correspondingly declined, 
remaining licensees are responsible for paying higher annual 
fees. With recent premature shutdowns and additional reactor 
decommissionings in the coming years, the current fee structure 
virtually guarantees that remaining licensees will continue to 
bear even higher annual fees.
    The draft Nuclear Utilization of Keynote Energy Policies 
Act adopts a straightforward approach to making NRC fees more 
equitable. It would continue to require the licensee to pay for 
all agency activities attributable to a licensee or class of 
licensees but disallow collection of fees associated with the 
agency's corporate support. While there are Federal budget 
questions that arise with this approach, it would require the 
NRC to justify corporate support costs to Congress in order to 
receive appropriations, and in turn, prompt the NRC to control 
its budget and reduce or eliminate wasteful spending.
    The draft bill recognizes the value of allowing 
international investments in U.S. nuclear plants by removing 
outdated restrictions on foreign ownership that ignore the 
multiple protections to our Nation's security and the reality 
of today's global nuclear energy markets. The draft bill also 
eliminates the uncontested mandatory NRC hearing on 
construction permits and combined license applications. This 
would not limit public participation since the public does not 
participate in a mandatory hearing and multiple other formal 
opportunities are available for public participation.
    The draft bill would require that the NRC improve the 
regulatory framework for decommissioning nuclear power 
reactors. It is in the best interests of all parties, the NRC, 
licensees, and other stakeholders, to have a more efficient 
regulatory framework for plants entering the decommissioning 
process. The existing framework does not appropriately account 
for the significant reduction in risk that results when a power 
reactor ceases operations, defuels, and decommissions.
    In closing, on behalf of NEI and its members, I wish to 
thank Congressmen Latta and McNerney for introducing the 
important advanced reactor legislation. We support passage of 
this bill. We also appreciate Congressman Kinzinger's work to 
reform NRC fees and the regulatory process.
    We look forward to working with members of the committee 
and their staff to advance these reforms. Again, thank you for 
the opportunity to testify today.
    [The prepared statement of Mr. Fertel follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Whitfield. And our next witness is Mr. Jeffrey 
Merrifield, who is partner of the Pillsbury Law Firm and also 
chairman of the Advanced Reactors Task Force, the Nuclear 
Infrastructure Council.
    Welcome, and you are recognized for 5 minutes, Mr. 
Merrifield.

               STATEMENT OF JEFFREY S. MERRIFIELD

    Mr. Merrifield. Thank you very much, Mr. Chairman. I also 
want to thank Ranking Member Rush and members of the 
subcommittee. As a former commissioner of the U.S. Nuclear 
Regulatory Commission, I frequently testified before this 
committee, and it is again an honor to----
    Mr. Whitfield. Mr. Merrifield, would you move your 
microphone a little closer?
    Mr. Merrifield. Sorry. I got it.
    Mr. Chairman, again, thank you very much.
    Thank you, Ranking Member Rush.
    As a former member and former commissioner of the Nuclear 
Regulatory Commission, I frequently testified before this 
committee, and again, it is an honor to be here this morning.
    Today, I am appearing in my role as chair of the U.S. 
Nuclear Infrastructure Council, Advanced Reactors Task Force, 
although, as mentioned, I am a partner in the Pillsbury Law 
Firm. My testimony will discuss the provisions in H.R. 4979 on 
advanced reactors, as well as the proposed changes to the NRC 
procedures that are the subject of a discussion draft offered 
by Congressman Kinzinger.
    NIC salutes the subcommittee's focus and support for 
advanced reactors, as well as the NRC budget reform provisions 
that provide funding for the NRC to develop a modernized 
nuclear licensing framework for advanced nuclear technologies. 
NIC issued a framework for advanced reactor licensing 
modernization white paper on February 22, 2016, which embraces 
many of the elements contained in the legislation.
    When I first became a commissioner in 1998, the NRC, with 
the support of Congress, worked to rightsize the agency, 
consistent with the level of licensing and inspection 
activities. At that time, the agency had approximately 3,400 
employees, and within the next few years we were able to reduce 
that down to about 2,800, principally through attrition, yet 
without any sacrifice to its mission of protecting people and 
the environment.
    Today, the agency faces the same challenges to reduce its 
staff and to become more efficient and timely in its licensing 
activities. While the NRC has made great strides in rightsizing 
the agency through Project AIM, we believe further efficiencies 
can be realized, while at the same time maintaining safety and 
inspection activities and improving the timeliness of 
licensing.
    During the past decade, the U.S. has maintained its 
technology leadership by developing new passive Generation III 
reactors in Georgia and South Carolina, as well as small 
modular light-water nuclear reactors headed toward deployment. 
NIC has seen significant growth and support for Generation IV 
advanced reactors that will provide expanded options for 
economical, carbon-free electricity and industrial heat 
generation.
    If the United States is to be successful in maintaining its 
lead in developing and deploying these reactors in the 2020s 
and 2030s, Congress must consider significant policy changes. 
We believe the language in section 6 of H.R. 4979 will allow 
the agency to create a modern, risk-informed, technology-
neutral framework, which will enable the development of 
appropriate advanced reactor regulations without passing these 
costs on to the developers or the utilities.
    While section 6(a)(6) calls for the NRC to evaluate options 
to allow applicants to use phased review processes, we believe 
the language should be strengthened to require the NRC to 
establish specific stages in the commercial advanced nuclear 
reactor licensing process, including a prelicensing vendor 
design review modeled after the Canadian Nuclear Safety 
Commission vendor design process that was recommended by the 
NIC white paper.
    Such a process would allow advanced reactor developers and 
investors to have a clearer picture of where they stand in the 
NRC process and in meeting NRC safety requirements and allow 
them to achieve further investment in their technologies.
    We would emphasize a need to establish risk-informed 
performance criteria applicable for advanced reactors. While 
licensing process reforms are needed, advanced reactor 
technical performance criteria arecritically required for 
developers to proceed with advanced reactor designs, and the 
NRC must move forward to finalize advanced generic design 
criteria, source term, and emergency planning requirements, 
among others.
    We strongly support section 2 of the discussion draft which 
places fair and equitable provisions on the agency's fee-based 
programs. By eliminating the current fee-based-to-nonfee-based 
ratio and articulating the specific areas that will be borne by 
general revenues, the draft provides the appropriate balance 
between the fees borne by individual companies and those 
overhead activities covered by the Federal Government.
    NIC believes the discussion draft would be strengthened by 
providing that the early stage engagement between advanced 
reactor developers and the NRC should be conducted at no or 
limited cost, with an appropriate cost share, perhaps 50/50 for 
later stages of the licensing process. While this can be funded 
through general revenues or a DOE grant program, either way, it 
should avoid the DOE and NRC picking advanced reactor winners 
and losers. We believe the private sector is better placed to 
identify and promote innovation, and the NRC licensing fees 
should not have a chilling effect on these entrepreneurial 
efforts.
    Finally, I strongly support the elimination of the foreign 
ownership requirements of section 3 and the mandatory hearing 
requirements contained in section 4, and I am pleased to 
discuss my views with the subcommittee.
    I would ask that some additional letters of support, 
including that of X-energy, be included in the hearing record.
    And with that, I again thank you very much for allowing me 
to testify today.
    [The prepared statement of Mr. Merrifield follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Whitfield. Thank you, Mr. Merrifield.
    Our next witness is Mr. Todd Allen, who is a senior fellow 
at the Clean Energy Program for the Third Way.
    Dr. Allen, thanks for being with us, and you are recognized 
for 5 minutes, and please get the microphone up close. Thank 
you.

                    STATEMENT OF TODD ALLEN

    Mr. Allen. Absolutely.
    Good morning, Chairman Whitfield, Ranking Member Rush, 
other distinguished members of the subcommittee. On behalf of 
Third Way, I greatly appreciate the opportunity to provide 
testimony on the importance of nuclear energy innovation.
    My perspective on nuclear energy comes from my diverse 
career. My first job after college, I lived on a floating 
nuclear reactor as an officer in the U.S. nuclear submarine 
fleet. I spent 10 years teaching at the University of Wisconsin 
nuclear engineering. I have seen firsthand the young generation 
that believes in nuclear technology as a critical component for 
providing clean energy.
    I have worked in the national laboratory system as the 
deputy for science and technology at the Idaho National 
Laboratory, working to open up the laboratory facilities to 
university and industry users across the country. Now I am at 
think tank, where I think.
    Third Way supports the further development of an innovation 
culture that creates and brings to market advanced nuclear 
technologies. Currently, nuclear energy is provided as a single 
product offering, specifically large gigawatt scale electricity 
production machines. But the national energy system is changing 
rapidly, opening up the possibility of nuclear energy 
supporting a wider range of functions if new ideas can get from 
conception to commercialization.
    A 2015 Third Way report identified nearly 50 companies, 
backed by more than $1.3 billion in private capital, developing 
plans for new nuclear plants in the U.S. and Canada. These 
companies are creating a growing number of product options of 
varying sizes and capabilities intending to build upon the 
continued success of our current light-water reactor fleet, 
which provides over 60 percent of the carbon-free electricity 
in the United States.
    Private-public partnerships will be key to the story, 
similar to the way hydraulic fracking and the Internet were 
developed and how SpaceX is currently teaming with NASA to send 
unmanned vehicles to Mars.
    So how can Federal investments nurture this emerging 
culture of nuclear innovation? I will use as an example a 
hypothetical graduate nuclear engineering student named Carla 
who wants to provide clean energy to the world and make money 
at the same time. What is her path to success in transitioning 
a good idea on paper to a marketable product and a thriving 
company, and where can partnerships with the Federal Government 
be useful?
    First step, Carla would benefit from early interactions 
with technical experts, financiers, and business developers. We 
suggest Carla could be helped through the creation of private-
public partnerships in early innovation, a proposal we have 
called Innovation Centers. Innovation Centers would also 
benefit the Department of Energy by providing the agency with 
valuable information on private sector investment trends that 
could then inform how DOE directs research dollars to solve 
problems that support multiple companies.
    Step two, securing investments. At the Innovation Center, 
Carla has opportunities to troubleshoot and mature her concept. 
She is also introduced to financial firms, which ultimately 
helps her secure a small investment to fund her company. Carla 
could leverage for private investment to receive DOE cost 
share, allowing her to move quickly and to signal to investors 
that her design is especially promising. The Department of 
Energy already engages in cost share programs, like the ones 
currently supporting project agreements with Southern Company's 
TerraPower and X-energy, and further use of these is 
encouraged.
    Her third step, specialized testing. Here is where the 
Federal programs become uniquely valuable, through access to 
national test beds. Some development requires access to 
specialized capabilities. For instance, test reactors, 
facilities to test radioactive materials, or high-performance 
computing. Fortunately, a number of the Department of Energy 
laboratories have these types of facilities and expertise that 
Carla needs. The Department of Energy created the Gateway for 
Accelerated Innovation in Nuclear, or GAIN program, to 
facilitate these private-public interactions.
    Step four, beginning her regulatory process. As she 
develops her technology, Carla would like to get signals from 
the regulator, short of licensing, that her technical solutions 
are reasonable. This will help her gain additional funding 
increments as she develops her designs. She needs a regulator 
who is staffed and funded in a manner that allows it to be 
ready to respond to emerging light-water reactor technologies. 
Ideally, the pace of regulatory review would support new 
products for an energy system that is changing rapidly, all 
while maintaining the traditional exemplary safety record.
    Step five, demonstration reactor. As is typical with many 
new and capital-intensive technologies, Carla may need to build 
a demonstration of a reactor before moving on to a full-scale 
commercial reactor. To address this, the Department of Energy 
should allow innovators like Carla a chance to build their 
demonstrations at one of their laboratories that already have 
experience running nuclear facilities, allowing Carla to build 
her reactor at Idaho or Oak Ridge, for example, to help her 
more affordably test her design and make any final changes to 
commercialize her product.
    Final step, NRC licensing of her demonstration reactor. 
Because Carla is hoping her demonstration reactor design will 
eventually be commercialized, which would require her to go 
through the NRC licensing process, it would benefit her if the 
NRC were involved in the licensing and construction of her 
demonstration reactor. When Carla's demonstration reactor 
works, she is ready to work with her investors and the Nuclear 
Regulatory Commission to get final design approval and funding 
for commercialization.
    Where can Congress help? Early innovation. Support the 
creation of multiple private-public Innovation Centers that 
facilitate the creation of a new generation of nuclear 
entrepreneurs. This can be formally done through report 
language in the appropriations process.
    Test beds. Support the GAIN program as our national nuclear 
Innovation Center, ensuring a modern infrastructure with world-
leading staff that serves as the Nation's test bed. Ensure that 
federally supported R&D programs are structured to maximize 
value through well-structured private-public partnerships. And 
finally, regulation. Ensure that the Nuclear Regulatory 
Commission is staffed, structured, and funded to support a pace 
of regulatory review that would support new products for an 
energy system that is changing rapidly.
    House Resolution 4979 asks the NRC and DOE to look broadly 
at their functions and report back on how they could better 
serve this emerging nuclear innovation community. We are 
supportive of this national approach and have suggested some 
specific ideas. We hope DOE and NRC have additional useful 
ideas.
    We also appreciate the intent of the discussion draft from 
Mr. Kinzinger and are ready and willing to interact to optimize 
our ability to move nuclear technology forward.
    Thank you for inviting me to testify. I look forward to 
your questions.
    [The prepared statement of Mr. Allen follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Whitfield. Thank you.
    And our next witness is Mr. Geoffrey Fettus, who is the 
senior attorney for the Natural Resources Defense Council.
    Thanks for being with us, and you are recognized for 5 
minutes.

                  STATEMENT OF GEOFFREY FETTUS

    Mr. Fettus. Thank you, Chairman Whitfield and Ranking 
Member Rush and distinguished members of the committee. It is a 
great honor to be here. I will just highlight a few points 
here.
    First, with respect to H.R. 4979, which requires DOE and 
the NRC to work together to work to develop a plan with public 
input for advanced reactor licensing systems, such a charge has 
merit in that it asks two of the relevant Federal agencies to 
work together, but some cautions are in order.
    Two hundred and seventy days is far too short a time to 
both gather and analyze the necessary technical and regulatory 
information and provide for public comment with respect to such 
a complicated set of economic, security, and environmental 
challenges as those faced by the licensing of advanced 
reactors.
    Further, both EPA and the President's Council on 
Environmental Quality should be part of any such enterprise, 
EPA for its standard-setting authority and CEQ for its 
oversight of NEPA obligations. Even though many of these 
advanced reactor concepts have been around for decades, none of 
the current space have demonstrated the security, 
environmental, and safety improvements necessary to make them 
viable in the near term, and more pertinent to the reality of a 
carbon-constrained future, none of them have demonstrated any 
likelihood that they will be able to compete in competitive 
energy markets. And the licensing process, effectively designed 
by industry and streamlined by the NRC multiple times over the 
last two decades, has little to do with that.
    Thus, our concern is real that the practical nuclear 
engineering and economic hurdles inherent to these technologies 
may serve as a distraction to the rapid continued scale-up of 
existing, economically viable, and proven solutions to the 
threat of climate change from wind, solar, and energy 
efficiencies.
    Second, we found the discussion draft substantially more 
problematic, and I will highlight just a few of the sections.
    Section 2 unwisely shifts substantial costs to the 
taxpayers rather than collecting them, as has been done 
historically via licensing fees.
    Section 3 requires a study on the feasibility and 
implications of repealing foreign ownership restrictions. While 
it is wise to study a matter and collect information before 
legislating, we would urge a requirement for wide public input 
on a matter this complicated, especially from the security 
terms.
    Section 4 does away with the mandatory hearing provision, 
which would do much harm to public confidence that all 
technical issues have been thoroughly and adequately considered 
by the NRC. Indeed, the mandatory hearing plays a crucial role 
in supplementing the contested hearing process in which few 
issues--and I want to stress this--sometimes no issues survive 
the gauntlet of NRC's arduous procedural requirement for 
admission of issues to a hearing.
    The mandatory hearing process has a proven track record of 
highlighting weaknesses in the NRC's staff's review. For 
example, in the case of the Clinton ESP, the Atomic Safety and 
Licensing Board found the staff's review, and I quote, ``did 
not supply adequate technical information or flow of logic to 
permit a judgment as to whether the staff had a reasonable 
basis for its conclusions,'' 64 NRC at 460.
    Section 5 is equally troublesome as it is simply a 
codification of agency drift to an informal, less rigorous 
hearing process that really has already been underway for a 
long time. And rather than ensuring the hearing process 
continues to become a yet more expedient process and more of a 
restrictive venue for states and the public, Congress should be 
directing NRC to submit a substantially redesigned adjudicatory 
hearing process that will provide regulatory certainty but will 
also simplify the hearing requirements to allow substantive 
technical issues of safety or environmental concern come to the 
fore rather than entertaining joint industry-staff efforts to 
flyspeck, curtail, or have dismissed literally every contention 
that has ever been filed before the Atomic Safety and Licensing 
Board.
    Section 6 is also problematic in that it weakens the 
opportunity for hearings on inspections, test analyses, and 
acceptance criteria prior to operation. It further bars the use 
of incomplete information as a basis for granting a hearing.
    Briefly, the perception that hearings cause delays in 
licensing has no basis in fact. The industry has long 
structured the hearing process, and NRC staff requests for 
additional information are at the heart of the timing, and that 
is simply evidence of the regulator doing its job.
    But even more to the point, docketing the application 
before it is complete when it often contains substantial areas 
that are promised to be addressed later or leaves out 
significant details creates the false impression that the time 
between when the application is docketed and when the final 
decision is rendered is attributable to the hearing process and 
public participation. This delay should not be used to justify 
even further restrictions.
    Section 7 would do grave harm to NEPA and likely bar any 
meaningful NEPA review by staff. The current NEPA process, as 
is practiced by the NRC, is already problematic, and I detail 
that in my testimony.
    And finally, with respect to section 8, we recommend 
striking the text in section (b), ``factors,'' entirely from 
the draft legislation as this language can prejudice and 
distort the final decommissioning rulemaking that has just 
commenced at the Commission.
    Thank you again for this opportunity, and I am happy to 
take any questions.
    [The prepared statement of Mr. Fettus follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Whitfield. Well, thank you.
    Thank all of you for your testimony.
    At this time, we will recognize members for questions.
    And, Mr. Latta, you are recognized for 5 minutes.
    Mr. Latta. Well, thanks, Mr. Chairman, and again, thanks 
for holding today's hearing.
    And, gentlemen, thanks very much for your testimony today. 
It is very much an appreciated.
    Mr. Merrifield, if I could start with the first question to 
you.
    My legislation requires the development of phased licensing 
process to provide certain assurances to the license 
applicants. What do you see are the primary advantages of 
structuring the licensing process in this manner and how would 
you recommend the NRC develop such a process?
    Mr. Merrifield. Well, I think right now one of the 
disadvantages of the current system is it is sort of all or 
nothing. You have to put in your license application and wait a 
very long period of time to determine whether the NRC is going 
to find that to be acceptable.
    For the advanced reactor community, having a stepwise 
process, as envisioned by your bill, would allow early 
interaction with the NRC and an early indication of whether 
that design may be licensable. If, indeed, the NRC finds out 
that that is the case, that developer can identify additional 
areas of funding to continue to process that application and 
that design.
    If for some reason--and we hope it is not the case--the NRC 
were to find that that would be something that would be 
difficult or not able to be licensed, then that applicant can 
then make a logical business decision whether they want to 
continue to move forward or not, and we think that is a real 
benefit to innovation.
    Mr. Latta. Well, thank you. And your testimony also 
suggests that the model used by the Canadian nuclear regulator 
should be pursued. What do you think makes their structure more 
unique and constructive?
    Mr. Merrifield. Well, it has some very specific steps to 
it. It does have this pre-application vendor design review. It 
has got some specific deliverables that are expected by the 
Canadian regulator that are well spelled out. It has a specific 
timing for when that review should occur. And, indeed, they 
even have limitations in terms of what the cost is going to be 
for the applicant.
    So it makes it a very clear program for everyone involved 
to understand what is expected in that first step, and it 
allows the technology both to be evaluated as well as to move 
forward.
    Mr. Latta. Thank you.
    Dr. Allen, if I could turn to you, following up on that, do 
you have any additional thoughts regarding the benefit of the 
phased licensing process.
    Mr. Allen. Just one small thing. I agree with the 
commissioner that it is a very important early signal to 
someone who is trying to take an early idea to 
commercialization to be able to get that feedback from the 
regulator.
    The other thing by getting those is, parallel to this, we 
have got the Department of Energy doing research programs in 
similar technical areas. The more that we can get early signals 
that we can then use to feed back and guide how we spend 
Federal dollars on research in a way that helps those private 
companies is also very useful.
    Mr. Latta. Thank you.
    If I could ask Mr. Fertel a question of you. In your 
testimony you talk about that the country is going to lose, in 
the next 15 years, 126 gigawatts of generation and that we are 
going to need 287 gigawatts by 2040. I represent a district 
with 60,000 manufacturing jobs. We have to have a baseload 
capacity out there.
    Could you just maybe kind of give me an overview of how 
many power plants we are talking about when you are talking 
about 126 gigawatts and what we are going to need when you look 
at 287?
    Mr. Fertel. I think, Congressman, in general, you could 
think about them if they are gas plants, which is what we are 
building now, they are probably on the order of 400 to 500 
megawatts each. So if we need 100,000 of them, we are going to 
be building 2,500-megawatt--I am sorry--1,000, yes, we would be 
building 100 of those, to get to 240 plus--it is almost 500,000 
megawatts. So you would be building 1,000 plants at 500 
megawatts each.
    Mr. Latta. Thank you.
    Mr. Merrifield, the Advanced Nuclear Technology Development 
Act requires the NRC to develop a risk-informed regulatory 
framework. Given your experience as a commissioner, would you 
please provide your interpretation of what a risk-informed 
framework means and what the primary inputs are into such a 
framework?
    Mr. Merrifield. Well, a risk-informed performance-based 
approach uses a combination of risk analysis and performance 
history to identify what are the most significant areas to 
focus your inspection and your regulatory activities. It 
recognizes that in any system, whether it is a nuclear power 
plant, a petrochemical refinery, or an interplanetary space 
vehicle, every system is not equally important to safety. So 
using a risk-informed performance-based approach allows you to 
prioritize what are the most critical components and focus your 
regulatory process toward those.
    Mr. Latta. Well, thank you very much.
    And, Mr. Chair, I see my time is about ready to expire, and 
I yield back.
    Mr. Whitfield. The gentleman yields back.
    At this time, I recognize the gentleman from Illinois, Mr. 
Rush for 5 minutes.
    Mr. Rush. I want to thank you, Mr. Chairman.
    Mr. Fertel, last week at the NRC's fiscal year 2017 budget 
hearing, the subcommittee examined the agency's request of 
almost $20 million less this year than what was enacted in last 
year's budget. These cuts were said to be in line with the 
agency's Project AIM initiative designed to streamline 
operations and better reflect the Commission's increased 
workload.
    However, in your statement you said that those reductions 
are not sufficient and that industry continues to see 
regulatory inefficiencies. Can you discuss why the new fee 
structure, as outlined in the discussion draft, is necessary?
    However, how would the change in the outline in the bill 
impact safety standards and protocols in these nuclear 
facilities.
    And if there are any other witnesses who would like to 
address any of these questions that I have asked, please chime 
in.
    Mr. Fertel.
    Mr. Fertel. Thank you for the question, Congressman.
    First of all, we never want to see either NRC's 
effectiveness as a regulator or their credibility as a 
regulator undermined. We think they are the best regulator in 
the world, and it is very important to us, from a commercial 
industry standpoint, for them to be very effective and credible 
in what they do.
    They have Project AIM going. We think Project AIM is a very 
significant and sincere effort on their part to look at 
rebaselining what they are doing. The scope of what they have 
as responsibilities has dramatically decreased. They had 
staffed up for 20-plus new plants. They were operating as 
though they had 107 existing reactors. We are moving forward 
with four new reactors. We currently have 99, and a number of 
those are going to be shutting down soon. Their material 
licensees have significantly decreased in how many that they 
are regulating.
    So they have, and they recognize this, a significant 
opportunity to rebaseline what they are trying to do with the 
basic scope of safety that they have to look at.
    They also, as the commissioner mentioned before, are 
looking at getting much more safety focused. They were looking 
at on the order of greater than 60 new rulemakings, which now 
the Commission is saying they are not going to do all of them, 
for an industry that is performing exceptionally well and for 
an industry that they have been regulating now for 50-plus 
years.
    So we see a significant opportunity for them to continue to 
do what they are doing, and we think that as they do what the 
industry is doing, as you deal with turnover due to 
retirements, you deal with a lot of this through attrition. And 
basically, you have an opportunity to hire critical resources, 
but probably not replace all resources. That is what we are 
doing on our side really religiously right now, unfortunately, 
because of the challenges that our plants face.
    On the corporate overhead and the approach in the bill that 
Congressman Kinzinger has proposed, what we see is really a 
tremendous benefit of having Congress provide some 
accountability and oversight to the corporate overhead. Their 
corporate overhead, based upon the study that they commissioned 
with Ernst & Young, is much higher than all their peer agencies 
that they looked at.
    I don't think they are evil for doing that, but there is 
not a lot of accountability for them to do less because we pay 
for it. It is not appropriated money, there is not a lot of 
oversight put to it, and there is very little transparency from 
our side to seeing what we are paying for and why.
    So we see a significant opportunity. But to your point, we 
do not want to hurt their credibility or their effectiveness, 
but we think that they can continue going down their path. Now, 
we may push harder because we know they won't go as fast, but 
we think that that helps them go in the right direction.
    Mr. Merrifield. Congressman, to that point, I mean, I was 
very proud to serve as a commissioner of the NRC, and I agree 
with the characterization. It contains an extraordinary group 
of hard-dedicated individuals.
    Having said that, as I related in my testimony, we went 
through a similar process when I was a commissioner to the 
process that they are undergoing today. There was a decreasing 
workload, and there was a need to appropriately align the size 
of the workforce and the task and make it more risk informed.
    We were able to do that, and I think it resulted from a 
couple of things. One, we had a significant amount of oversight 
from Congress. We had to provide monthly reports to Congress on 
the progress of the licensing activities that we had underway. 
And that drove the Commission, in its budget process, in what 
it presented to Congress, to conduct a line-by-line review of 
how it was spending money, what the priorities were, and to 
make sure that it was doing the most important stuff and 
recognize that some things just simply didn't need to be done. 
I think the Commission certainly needs to have that level of 
engagement, and I trust they should right now.
    The one thing I would mention on corporate overhead 
support--we didn't have this term when I was a commissioner--I 
think there has been a lot of growth in things like IT and 
other things which may drive some of this. There is one program 
I think this committee needs to be aware is important that 
isn't overhead, and that is international programs. There are 
countries around the world that look to the NRC to help them 
craft their regulatory programs. It is very important, as 
Congress looks to oversee these programs, that that one, in 
particular, is not hurt.
    Those are important investments, they should come from 
general revenues, but it is assistance that that agency 
provides around the world, and it is critical.
    Mr. Fertel. The industry would certainly support what 
Commissioner Merrifield recommends on them helping 
internationally from a safety standpoint.
    Mr. Rush. I yield back, Mr. Chairman.
    Mr. Whitfield. At this time, I recognize the gentleman from 
West Virginia for 5 minutes, Mr. McKinley.
    Mr. McKinley. Thank you, Mr. Chairman. And in deference to 
time, I will try to keep this short, so I am going limit to 
maybe one or two questions on it.
    Mr. Fertel, with you with the NEI, we understand with the 
new nuclear technologies that will come as a result of 
legislation like this, we know that there are going to be 
developments that will probably reduce the amount of waste 
product that comes from the spent fuel rods. But nevertheless 
the whole process of making nuclear energy is going to develop 
a waste product, maybe less than we are currently doing, but 
nevertheless there still will be a waste product.
    So does NEI have a position? Do you support the Yucca 
Mountain as a permanent site for the disposal of nuclear fuel 
waste as required by law?
    Mr. Fertel. Congressman, we have always supported going 
forward, finishing the licensing on Yucca Mountain to determine 
it is licensed, which we think it would be, and then to move 
forward with Yucca Mountain. We also support, in parallel, the 
necessity of having centralized interim storage, because we 
don't think you can get to Yucca and do everything fast enough 
for the fact that we have plants that are shutting down. And 
our support also goes to making sure that there is access to 
the Nuclear Waste Fund. There is over $30 billion in it, and we 
don't have access right now.
    Mr. McKinley. Of the 99, I guess, reactors we have 
functioning, I am curious about what is being done currently to 
safeguard those spent fuel rods in those water baths. We know 
the potential with all the fear of terrorism and other activity 
for national security. Is there something being done on this 
nuclear waste management that can give us a greater comfort 
than the way we are doing it now? If we are not using Yucca 
Mountain yet, how safe should we feel?
    Mr. Fertel. Yes. I am sure Commissioner Merrifield will add 
to this.
    Mr. Merrifield. I will.
    Mr. Fertel. But the NRC heavily regulates what we do with 
used nuclear fuel, both while it is in the spent fuel pool and 
then when we put it in dry cast storage on site. We obviously 
have stringent security plans to make sure that not just the 
used fuel is protected, but the active fuel and other things at 
our plants. And based upon the Fukushima lessons learned, there 
has even been enhancements to what we do with used fuel at our 
sites because of what we learned from what went on in Japan.
    So I think to some degree the problem with used fuel is 
that it is managed very well on sites, which doesn't create the 
crisis to cause our country to try and implement the Nuclear 
Waste Policy Act or any other law related to it. So the good 
news is we manage it very well and it is regulated very well. 
The bad news is it doesn't move it very quickly to where you 
want it to go.
    Mr. McKinley. Thank you.
    Mr. Merrifield. Congressman, on the issue of security, I 
was a commissioner during 9/11. I was in front of this 
committee talking about the things that needed to be 
accomplished to protect the U.S. fleet of nuclear units.
    I can say without reservation, I have been on nuclear sites 
within the last week looking at security issues, and I can 
assure you these are the safest industrial facilities in the 
United States. The level of security that we have at the 
nuclear power plants in the United States is well beyond what 
is even needed to protect that fuel from the adversaries that 
we face today.
    Mr. McKinley. Thank you.
    And, Chairman, I yield back the balance of my time.
    Mr. Whitfield. We have two votes on the floor. We have got 
about 10 or 11 minutes left. So if you all would be in 
agreement, we will recognize you for 3 minutes, and we will 
just get as far as we can, and then if somebody wants to come 
back, we can talk about that.
    So, Mr. McNerney, you are recognized for 3 minutes.
    Mr. McNerney. Thank you, Mr. Chairman.
    Mr. Fertel, do you believe that we need to include fusion 
specifically in the H.R. 4979 framework?
    Mr. Fertel. Was the question about fusion?
    Mr. McNerney. Yes.
    Mr. Fertel. To be honest, I hadn't thought about that, but 
my reaction is I think it is a whole different regulatory 
regime that we would have to look at for fusion, and the 
availability of fusion is still far enough off that I wouldn't 
rush it in and distract the NRC from paying attention to being 
able to put a regulatory process in place for the other 
technologies that are deployable sooner than that. I wouldn't 
eliminate it as something you should look at for the longer 
term, Congressman.
    Mr. McNerney. OK. Thank you.
    Mr. Allen, the Third Way report that identified 50 
companies developing plans for new nuclear plants in the U.S. 
and Canada, how soon are some of these technologies going to be 
available and is the NRC ready for that?
    Mr. Allen. I think they are on a big spectrum, depending on 
how much technology development has been done in the past. I 
would say the quickest, assuming that we do the types of things 
we need in the regulatory space, would be on the order of 10 to 
15 years. Some of them are much further out than that.
    And I think that the NRC has a strong regulatory function, 
but as we talked about, it could do some things to be better 
receptive to these types of companies and to build staff depth 
in areas that they are not used to regulating.
    Mr. McNerney. Mr. Merrifield, do you think there is a risk 
of agencies blocking heads against each other, the NRC and the 
DOE, with respect to the new technology?
    Mr. Merrifield. There were a lot of discussions between the 
DOE and NRC on earlier advanced reactor-like programs. That did 
not get as far as I think we had hoped it would have gotten. I 
think with the focus that this committee and your counterparts 
in the Senate have on advanced reactor technologies, the 
legislation that you have before you will give the framework 
and the encouragement for the NRC to move forward.
    They are an agency which, when focused on a mission, do a 
great job of accomplishing it. I sometimes refer to them as the 
Boy Scouts of Federal agencies. They need the focus, they need 
the encouragement of this committee. But I think they can 
accomplish the mission to appropriately and safely license and 
regulate advanced reactors in a timely and effective way.
    Mr. McNerney. And an MOU would be sufficient to cause that 
to happen?
    Mr. Merrifield. I believe so, yes, Congressman.
    Mr. McNerney. Thank you.
    Mr. Chairman, I will yield back.
    Mr. Whitfield. Mr. Kinzinger, you are recognized 3 minutes.
    Mr. McKinley. Thank you, Mr. Chairman.
    The NRC has previously informed Congress that it believes 
amending the Atomic Energy Act to eliminate the mandatory 
uncontested hearing on combined license and early site permit 
applications could enhance the efficiency of NRC operations.
    Section 4 in my draft allows the Commission, if a hearing 
isn't requested by an affected person, to issue a construction 
permit, operating license, or amendment to such permits and 
licenses without holding a hearing.
    Mr. Fertel, in your view, how would this provision improve 
regulatory efficiency at the NRC?
    Mr. Fertel. I think what it would do is allow both the 
licensee and the NRC staff to move forward on issues while a 
hearing is being done, which is, to be honest, very similar to 
a situation for the operating plants. So it would not delay the 
startup of a facility that might be critical to electricity, 
but certainly would not be making any revenue while it is 
sitting there.
    If there was a true safety issue that it shouldn't start 
up, they are not going to allow it to do that. So it doesn't 
allow you to do something that is going to provide unsafe 
conditions.
    Mr. Kinzinger. And what kind of regulatory and economic 
burdens are associated with the mandatory hearing requirement? 
How much can an uncontested mandatory hearing delay the 
process?
    Mr. Fertel. There is not great data. We have looked at that 
based upon the Vogtle experience and some of the other 
projects, and it is hard to decipher exactly because there was 
the design cert going through at the same time. But our 
estimate was it could have been an 80- to 120-day delay as a 
result with, to be honest, not significant value added by that 
because of all the other reviews.
    Mr. Merrifield. If I can just answer for a second on that 
one.
    Mr. Kinzinger. Yes.
    Mr. Merrifield. Congressman, I think there are two issues 
associated with mandatory hearings. One of them is an issue of 
the extra time it takes. The other portion is the amount of 
staff activity that ultimately has to be borne by the applicant 
and the distraction it gives to actually getting to the 
ultimate decision. The staff, in preparing for those hearings, 
wants to make sure that everything they send up to the 
Commission is in a certain way. That eats up a huge amount of 
time.
    As a commissioner, I recognized that there were 
extraordinary opportunities for the public to comment on the 
process that even led to the ultimate licensing, and indeed the 
mandatory hearing was an antiquated legacy of the 1950s that 
was not needed.
    Mr. Kinzinger. Thank you.
    And a lot more to ask, but duty calls, and I will yield 
back. Thank you all for being here.
    Mr. Whitfield. The gentlemen yields back.
    At this time I recognize the gentleman from Texas, Mr. 
Green, for 3 minutes.
    Mr. Green. Thank you, Mr. Chairman.
    I am a supporter of nuclear power, and I think to get to a 
carbon-free environment that is where we need to get to. I 
believe increased cooperation between DOE and NRC would create 
efficiencies and expedite the process of approving new 
reactors. Combined with the President's GAIN initiative, I 
think we can revitalize our nuclear sector and secure 
additional baseload power.
    I do have some concerns about the Nuclear Utilization of 
Keynote Energy Policies Act. And I would like to ask some 
questions.
    Mr. Merrifield, in your testimony you made reference to a 
2016 white paper released by your organization that discussed 
framework for licensing modernization. The white paper listed 
five recommendations for Congress: proactive oversight of NRC's 
design review and licensing process; providing sufficient 
resources--and I am guessing that means money; encouraging NRC 
to meet a 36-month deadline for review; and directing NRC to 
identify roadblocks to expedite approvals and submitting annual 
updates.
    In your opinion, does the legislation before the 
subcommittee today adequately address these recommendations?
    Mr. Merrifield. In the main, I think it does. We actually I 
think focused on a couple of things that we would ask for 
improvement in the two bills that you are looking at today. One 
is to be really specific in requiring a pre-application vendor 
design review process. The other one was to providing a greater 
opportunity for engagement between the developers of advanced 
reactor technologies and the NRC at no cost early stages in the 
process to really enhance the level of understanding on the 
part of the agency and the developer.
    Mr. Green. During your service as a commissioner, do you 
recall how many licensing reviews the NRC completed?
    Mr. Merrifield. How many licensing reviews?
    Mr. Green. Yes.
    Mr. Merrifield. I would have to go back and do some 
research on that.
    Mr. Green. If you could get that, I would appreciate it.
    With respect to these reviews, do you have a sense of how 
many hearings did the Commission grant upon request under 
section 189 of the Atomic Energy Act?
    Mr. Merrifield. I would have to go back and review that 
one.
    Mr. Green. OK. If you could get that for us.
    And also under section 189, are formal adjudicatory 
procedures required of the Commission or do they have 
discretionary authority? Are they required to have those 
procedures or is it discretionary with the Commission?
    Mr. Merrifield. I am sorry, Congressman, I didn't hear 
that.
    Mr. Green. Under section 189, are the formal adjudicatory 
procedures required of the Commission or do they have 
discretionary authority?
    Mr. Merrifield. Congressman----
    Mr. Fettus. I can answer that.
    Mr. Merrifield. I would like to have the opportunity to 
review those procedures and provide an appropriate response to 
the committee.
    Mr. Green. OK.
    Mr. Chairman, I will be glad to submit the questions.
    And if you could get back to us.
    Because, again, if we can move the process along. And 
coordination between agencies is never bad.
    Thank you, Mr. Chairman.
    Mr. Whitfield. Well, thank you.
    And we appreciate you all being with us today. I am going 
to ask just a couple of questions.
    We still have 3 minutes before we have to vote, Bobby, so 
no rush.
    NuScale Power has stated their plans to submit its design 
certification application to the NRC by the end of 2016 for a 
so-called small modular reactor. And, Mr. Merrifield, I would 
just ask you, what is your outlook for NRC's readiness to 
accept a high-quality application and review it in a timely 
manner?
    Mr. Merrifield. Congressman, I think the NRC has been 
preparing, as far as I can tell, I believe the NRC has been 
preparing itself to receive that application. It is a light-
water reactor technology. It is something that the NRC is 
familiar with. And I think they will do their level best to 
accept it and review it in due course.
    Mr. Whitfield. Do you agree with that, Mr. Fertel?
    Mr. Fertel. Yes, I think the way Jeff Merrifield answered 
is probably accurate. And I think that the division director 
there is a very competent young woman who I think is making 
sure that they are as prepared as they can be. So we would 
expect they will do as good a job as they can.
    Mr. Merrifield. Yes, I agree with that. Mr. Fertel 
references Jennifer Uhle, who is the director of the Office of 
New Reactors. She is a very talented young woman I think will 
do an exceptional job for that team.
    Mr. Whitfield. Well, we hear a lot of discussion about 
small nuclear modular reactors and great hope for them. And 
some are sodium cooled, some are lead cooled, light water. How 
many of these so-called small modular reactors are there 
operating today around the world? Does anybody have any idea?
    Mr. Fertel. I don't think that from a commercial standpoint 
thereis hardly any. But all of our submarines are using small 
modular reactors and our aircraft carriers. So there is 
experience with them. Now, they are different, but there is a 
lot of experience.
    And in our country right now, Mr. Chairman, electricity 
growth, thanks to really very good efficiency and things like 
that, and also probably being hurt by our economy a bit, but 
our electricity growth is really very small. So small modular 
reactors are becoming actually even more important 
domestically. We always thought they were important 
internationally. But even domestically they are becoming very 
important, particularly as you replace older smaller coal 
plants and eventually even gas plants.
    Mr. Merrifield. Mr. Chairman, one thing I think is 
important to remember, particularly about advanced reactor 
technologies, we talk about traditional utility uses for 
generating electricity. What is important to remember is these 
technologies also provide very high sources of heat. So the new 
users of these technologies may not necessarily be just our 
traditional utilities. It may be also for other industrial 
processes that can utilize that heat and power.
    Mr. Whitfield. Anybody else have any comment? OK.
    Mr. Allen. Yes, I would just agree that they are looking at 
a large number of different commercial products than just 
gigawatt-scale nuclear.
    Mr. Whitfield. So when we talk about small, are we talking 
about below 300 megawatts or so?
    Mr. Merrifield. Yes. Some of them that are conceptualized 
could be as small as 3 to 10 megawatts. Some of them are in the 
range of 80 to 100. Others are on sort of the verge of 300. So 
there is a range of the potential reactors being proposed.
    Mr. Fettus. Chairman Whitfield, though, there is one 
caution. The only ones that we have seen that have had any 
indication of any economic viability have been coupled together 
in the several-hundred megawatt range to allow for some economy 
of scale to actually be able to compete in a market. And none 
of these are built around the world. The number is actually 
zero. And the question of whether or not they will have any 
chance in a competitive marketplace in 10, 12, 15 years, no one 
has a crystal ball here.
    Mr. Merrifield. Well, no one has a crystal ball, but at the 
end the market is going to resolve that. That is what we are 
asking for, a predictable regulatory regime that those reactors 
can be licensed through. If they can't come up with the 
economics that the market will bear, those reactors will not go 
forward.
    Mr. Whitfield. Well, listen, thank you all very much. We 
look forward to working with you as we consider these two 
pieces of legislation and other issues as well.
    We will keep the record open for 10 days.
    And once again, thank you. And that concludes today's 
hearing.
    [Whereupon, at 10:41 a.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

                 Prepared statement of Hon. Fred Upton

    With two nuclear power plants just miles from my home in 
Southwest Michigan, I know firsthand the importance of safe, 
clean nuclear energy to the nation's energy portfolio, as well 
as the economic benefits nuclear brings to local communities. 
Nearly thirty percent of Michigan's electricity is generated by 
nuclear power and the industry supports more than 2,900 highly 
skilled employees in the state. Because of the large role 
nuclear energy plays in Michigan and across the country, it's 
imperative that folks have confidence in the Nuclear Regulatory 
Commission's mission to protect public health and safety. This 
mission can, and should, be achieved while also providing 
regulatory certainty for NRC licensees and stakeholders. And 
the simple fact is we can't have nuclear power without the NRC.
    As a fee-based organization, Michigan ratepayers fund the 
NRC through utilities in annual fee assessments. This structure 
requires continued Congressional oversight to assure the NRC 
diligently manages its operations and continually strives to 
become more efficient. The proposed legislation for review this 
morning seeks to do just that.
    Over half of today's nuclear power plants commenced 
operation over thirty years ago and many are likely to enter 
the decommissioning process in the next decade. The age of the 
existing fleet should encourage policymakers to look to the 
next generation of nuclear energy technologies. The NRC's 
existing regulatory structure was designed to license and 
oversee light water reactor technology that was developed as a 
result of a policy choice due to our nuclear navy. Today, 
innovative engineers are developing promising new nuclear 
technologies that could bring significant design improvements 
to take us beyond the current fleet of nuclear power plants.
    In order to achieve this goal, private stakeholders must 
understand the criteria by which the NRC will accept non-light 
water reactor designs. It is also important for the NRC be 
prepared to receive and review these designs in a timely 
manner. Congressman Latta's bill, the Advanced Nuclear 
Technology Development Act, will direct NRC to fulfill those 
obligations. I thank him for his forward thinking on this 
issue.
    Representative Kinzinger's discussion draft highlights the 
importance of NRC licensees to maintain confidence that 
licensing and other regulatory activities are resolved in a 
timely, efficient, and safe manner. The proposed legislation 
would maintain the existing ``gold standard'' of safety 
regulation by the NRC, while implementing some commonsense 
policies and process changes. I recognize that there may be 
differing viewpoints in how to achieve this high standard and I 
hope today's hearing is a constructive step in facilitating 
those discussions. I look forward to exploring these issues in 
greater detail as we have an eye toward our nuclear future.
                              ----------                              


             Prepared statement of Hon. Frank Pallone, Jr.

    Thank you, Mr. Chairman. I appreciate the opportunity today 
to examine two pieces of legislation related to the licensing 
and review of nuclear power reactors here in the United States.
    The first bill under consideration is H.R. 4979, the 
Advanced Nuclear Technology Development Act of 2016, introduced 
by Representatives Latta and McNerney. The bill seeks to 
enhance coordination between NRC and the Department of Energy 
through a memorandum of understanding on issues related to 
advanced nuclear reactor technology. This is a worthy goal and 
a commonsense way for the federal government to support the 
advanced nuclear power industry.
    The bill also requires NRC to develop an advanced reactor 
regulatory framework to evaluate the options to expedite 
advanced reactor licensing and make it more predictable. NRC 
would have 270 days from the date of enactment to submit this 
plan to the Energy and Commerce Committee. The plan must also 
seek input from interested stakeholders, which is crucial. I 
support this approach, but want to hear more about whether 270 
days is a realistic timeframe.
    The second proposal before us, is a discussion draft put 
forth by Representative Kinzinger entitled the Nuclear 
Utilization of Keynote Energy Policies Act.
    I believe nuclear power must play a continued role in our 
energy future. It is a clean source of power that has helped 
reduce our dependence on fossil fuels. Today the industry faces 
the dual challenges of working to extend the life of our 
country's existing reactors--many of which are reaching the end 
of their 40 year licenses--while also pursuing innovative 
advanced nuclear technologies that could be more cost-
effective, efficient and produce less waste.
    Members on both sides of the aisle believe that this is an 
important issue for our committee to consider, and I want to 
commend Mr. Kinzinger for putting forth this draft and 
beginning this critical discussion.
    However, while we should explore opportunities to support 
and sustain nuclear power in the U.S., we cannot lose sight of 
the critical importance of maintaining robust nuclear safety 
and oversight to protect public health and the environment. We 
must strike the right balance. This week marks the 30th 
anniversary of the Chernobyl nuclear disaster, which provides 
us with a sober reminder of the dangers posed by nuclear 
technology if not properly regulated and controlled.
    So, I am concerned that, in its current form, this proposal 
goes too far in one direction, minimizing public input into the 
licensing process, eliminating critical hearings on the 
licensing process, unrealistically shortening the licensing 
review timeline, and drastically reducing the portion of NRC's 
budget that is covered by licensee fees.
    Currently, NRC recovers 90 percent of its budget from 
licensee fees. Section 2 of the discussion draft would shift a 
number of commission activities out of the portion of the 
budget covered by fees. One of those areas would be 
``infrastructure and corporate support,'' which includes 
administrative services, acquisitions, training and travel. 
This section alone is funded at over $300 million in the Fiscal 
Year 2017 Energy and Water Appropriations bill that has passed 
committee. So, this provision would shift over $300 million to 
taxpayers instead of industry.
    Further, this discussion draft eliminates the mandatory 
public hearing that is held before a combined license is 
approved, which allows construction of the facility to move 
forward. This hearing is a one-day proceeding that provides a 
holistic review of the license application, and it is a 
valuable tool for the NRC commissioners to evaluate the staff's 
review of the license application. The mandatory hearing also 
provides an important opportunity for the public to become 
involved in the licensing process. In fact, just last month, a 
mandatory hearing was held on the early site permit application 
for a site adjacent to the Salem and Hope Creek nuclear power 
plants in New Jersey and that permit was issued yesterday. Past 
mandatory hearings have brought to light serious issues that 
may have otherwise gone unchecked.
    I will say that it is unfortunate that the NRC was not 
invited to testify today. Both proposals would make significant 
changes to the way NRC addresses nuclear licensing, and I 
believe it is critical for us to hear from the Commission as we 
continue with this process.
    That said, I would like to thank the Chairman for holding 
today's hearing. While I have raised some concerns today, I do 
look forward to working together with my colleagues on these 
issues.
                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
